<html>
<title> - FTO PASSPORT REVOCATION ACT OF 2015</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                  FTO PASSPORT REVOCATION ACT OF 2015

=======================================================================

                                 MARKUP

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 237

                               __________

                             MARCH 25, 2015

                               __________

                           Serial No. 114-10

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-915 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                       
                       





                       

                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 237, To authorize the revocation or denial of passports and 
  passport cards to individuals affiliated with foreign terrorist 
  organizations, and for other purposes..........................     2
  Amendment in the nature of a substitute to H.R. 237 offered by 
    the Honorable Ted Poe, a Representative in Congress from the 
    State of 
    Texas, and chairman, Subcommittee on Terrorism, 
    Nonproliferation, and Trade..................................     5

                                APPENDIX

Markup notice....................................................    12
Markup minutes...................................................    13
Markup summary...................................................    14

 
                  FTO PASSPORT REVOCATION ACT OF 2015

                              ----------                              


                       WEDNESDAY, MARCH 25, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                        Washington, DC.H.R. 237

    The subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2255 Rayburn House Office Building, Hon. Ted Poe (chairman 
of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    We meet today, pursuant to notice, to mark up the bill H.R. 
237, the FTO Passport Revocation Act of 2015.
    As your offices were notified yesterday, it is the intent 
of the Chair to consider en bloc the following items which were 
previously provided to all members and are in your folders: 
H.R. 237, as introduced, and the Poe Amendment Number 25, a 
bipartisan amendment in the nature of a substitute to H.R. 237.
    [The information referred to follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Poe. Without objection, these items are considered as 
read and will be considered en bloc.
    I will next recognize members to speak on these items if 
they wish. I will speak, and then the ranking member will speak 
after, and then those that wish to be heard on this particular 
bill.
    The recent terrorist group known as the Islamic State of 
Iraq and Syria (ISIS) has taken over large parts of Iraq and 
Syria, but it is not just in Iraq and Syria that Islamic 
extremists have waged war. Recent deadly terrorist attacks in 
France, Australia, Canada, Denmark, have reminded us that the 
threat of attacks is in the West. These killers are ready to do 
what they wish and eager to take their rampage worldwide.
    Many of those killers, unfortunately, include some of our 
own citizens. In 2015, the Director of National Intelligence, 
James Clapper, said that 180 Americans had tried to go and 
fight in Syria, either for ISIL or al-Nusra or some other 
Islamic extremist group. There may be more; we do not know.
    Each of you have in front of you a handout that describes 
16 incidents that are known to the public. American citizens 
fighting for ISIL in Syria and Iraq are a very real and 
dangerous threat to the United States. These individuals are 
receiving training that makes them capable of sophisticated 
terrorist attacks, and they put themselves under the command 
and control of leaders who want to attack eventually the United 
States. This isn't a hypothetical threat.
    Before Moner Mohammad Abusalha became the first American to 
carry a suicide bomb attack in Syria, unbeknown to authorities, 
he returned home to Florida as a fully trained terrorist. He 
was also a card carrying member of the al-Qaeda-aligned al-
Nusra front. Fortunately, he did not carry out an attack in the 
United States, but he could have.
    These traitors who have turned against America and joined 
the ranks of foreign radical terrorist armies should not be 
allowed to come back into the United States unless they come 
back in handcuffs.
    For these reasons, H.R. 237, the Foreign Terrorist 
Organization Passport Revocation Act, is a critical bill at a 
critical time. This bill grants the Secretary of State the 
authority to revoke or deny U.S. passports for individuals who 
are members or otherwise help designated foreign terrorist 
organizations execute their reign of terror. We must stop these 
individuals from coming back to the United States to do harm to 
Americans.
    I will now turn to the ranking member, Mr. Keating from 
Massachusetts, for his opening statement.
    Mr. Keating. Well, thank you, Mr. Chairman. I would just 
like to thank you for your cooperation, working together on the 
amendment, and the opportunity to clarify the authority that 
the Secretary of State will have in this regard, and hopefully 
this is one more safety net for the emerging threats that we 
have and face daily. So thank you, again, Mr. Chairman.
    Mr. Poe. I now turn to Mr. Wilson from South Carolina, if 
he wishes to make an opening statement. And the microphones do 
not work.
    Mr. Wilson. Good. I am glad that you explained that. Mr. 
Chairman, I want to thank you for having this timely and 
important markup today. As a member of this subcommittee, and 
as the chairman of the House Armed Services Subcommittee on 
Emerging Threats and Capabilities, and the father of four sons 
currently serving in the United States military, I know the 
threat of domestic terrorism firsthand.
    With the rise in terrorism recruitment through vast 
international communications opportunities and social media, 
this is an issue that must be addressed now, not tomorrow or 
the next day. This legislation makes--takes measures to ensure 
that individuals who are involved in or supporting terrorism in 
any capacity are not issued U.S. passports and have theirs 
revoked if they are in possession of a passport currently.
    Traveling under a U.S. passport is a privilege. When an 
individual engages in terrorist activity that directly 
threatens American families or her allies abroad, they forfeit 
that privilege. I support this legislation because I know it 
takes an important first step in stopping the spread of 
homegrown terrorism, which we have unfortunately seen steadily 
rise in recent months.
    I applaud Chairman Poe and his work on this legislation, 
and I look forward to continuing to work with this committee to 
fight the spread of terrorism both around the globe and here at 
home.
    I yield back.
    Mr. Poe. Thank the gentleman from South Carolina. How many 
sons do you have that served in the Middle East?
    Mr. Wilson. My two older sons served in Iraq, my third son 
served in Egypt, and my fourth son just returned from serving 
in Afghanistan.
    Mr. Poe. Tell them thank you for their service.
    Mr. Wilson. Well, hey, their mother did well.
    Mr. Poe. Any other members wish to be recognized for a 
statement? Mr. Cook of California.
    Mr. Cook. Yes, sir. Thank you, Mr. Chairman, for this 
hearing. I am not going to talk very long, but I think what you 
are doing today is something that I actually think we are a 
couple of steps behind the terrorists, particularly ISIS, and 
some of the other groups in terms of social media, and what 
have you.
    You have to give credit to this new, ruthless organization. 
It is a new form of warfare. And, unfortunately, it is working. 
It has worked in Boston. It has worked in New York. It has 
worked in other areas. And unless we combat this with some of 
the things that are listed here, we are never going to catch 
up.
    When we are losing our young people that are being 
influenced to the point where they are going to go over there 
and fight, actually die for a cause which means just--hard to 
believe in terms of their values and morals.
    So I thank you for this hearing. Thank you.
    Mr. Poe. Thank the gentleman.
    Any other members wish to be heard on a statement? Does the 
gentleman from California wish to be heard on the--making a 
statement on this legislation?
    Mr. Sherman. No.
    Mr. Poe. All right. Thank you. Hearing no further requests 
for recognition, the question occurs on adopting the items 
under consideration en bloc. All those in favor say aye.
    [Chorus of ayes.]
    Mr. Poe. Those opposed, no.
    [No response.]
    Mr. Poe. In the opinion of the Chair, the ayes have it. The 
en bloc items are approved.
    Without objection, H.R. 237 will be reported favorably to 
the full committee in the form of a single amendment in the 
nature of a substitute incorporating the adopted amendments, 
and the staff is directed to make technical and conforming 
changes.
    I want to thank all of our members. I want to thank 
especially the minority for their cooperation, and the staff 
for all members and their assistance and cooperation that went 
into today's markup.
    The subcommittee stands adjourned.
    [Whereupon, at 1:46 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                      Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
